U.S. Department of Justice
Office of the Inspector General




   A Review of the FBI’s Progress in
Responding to the Recommendations in
 the OIG Report on the FBI’s Handling
    and Oversight of Katrina Leung




                            EXECUTIVE SUMMARY

                                    Office of the Inspector General
                                    Oversight and Review Division
                                                      October 2013
                             EXECUTIVE SUMMARY



I.    Introduction

       The Office of the Inspector General (OIG) has completed a follow-up review
of the Federal Bureau of Investigation’s (FBI) progress in implementing the
recommendations contained in the OIG’s May 2006 report, “A Review of the FBI’s
Handling and Oversight of FBI Asset Katrina Leung.” The May 2006 report
described the FBI’s handling and oversight of Katrina Leung, one of the FBI’s
highest paid counterintelligence assets who allegedly also worked for the People’s
Republic of China. Leung had a longtime intimate relationship with her FBI
handler, Special Agent James J. Smith. The OIG found that the FBI was aware
of serious counterintelligence concerns about Leung, but did little to follow up on
the warning signals.

       The OIG’s 2006 report provided 11 recommendations to address systemic
issues in the FBI’s asset handling and vetting procedures that enabled Smith
and Leung to escape detection for more than 20 years. Our recommendations
included continuing the FBI’s new asset validation review process and devoting
sufficient resources to these reviews; creating a new subsection in the asset file
for red flags, derogatory reporting, anomalies, and analyses; requiring a more
thorough periodic background reinvestigation for long-term assets; requiring
alternate case agents to meet with assets on a frequent basis; limiting the time
an agent can handle an asset; fully implementing the FBI’s policy regarding
counterintelligence polygraph examinations; and prohibiting blanket
exemptions to the asset handling rules.

      Between 2006 and 2009, the FBI provided the OIG with several updates
regarding its efforts to implement our recommendations. In 2010, the FBI
informed the OIG that it had undertaken several additional measures that would
address the concerns we had identified in our report. We undertook this
follow-up review to evaluate whether these new measures are responsive to the
recommendations we made in our 2006 report.

II.   Scope and Methodology of the Report

      Our follow-up review focused on whether the FBI has attempted to fully
implement the recommendations we made in our report. For purposes of this
review, we examined only whether the FBI implemented measures to respond to
the problems we identified in our recommendations. We did not evaluate
individual source files to attempt to determine whether or how well the FBI is
complying with its new human source policies.



                                        1
       We provided a copy of this report to the FBI for its comments concerning
factual accuracy and classification. The full 29-page report has been classified
by the FBI at the Secret level because, according to the FBI, it contains sensitive
classified information regarding intelligence sources and methods.

III.   Results of the Review

       We found that in the more than six years since we completed our original
investigation, the FBI has completely revamped the way it oversees confidential
human sources. Most importantly, the FBI has undertaken the Human Source
Re-Engineering Project in order to coordinate consistently the manner in which
all human sources are managed and validated. As part of this effort, the FBI
established an electronic record-keeping system and database designed to
facilitate more meaningful and objective analytic reviews of sources and detailed
supervisory reviews of source handling. In response to our recommendations,
the FBI has also undertaken critical agent, ethics, and source handling training.

      Our follow-up review determined that as a result of these efforts, the FBI
has fully implemented five of our recommendations. These five
recommendations include that the FBI save asset file review records indefinitely
rather than just from one 90-day review to the next; require periodic background
reinvestigations for long-term assets; create annual ethics training; conduct
counterintelligence polygraph examinations; and prohibit blanket exceptions to
asset handling rules. We therefore consider these recommendations closed.

       Our review also concluded that six recommendations from our original
report are resolved, but not closed. The first of these is our recommendation
that the FBI continue its FBI Headquarters managed asset validation review
process and provide sufficient resources for this function. In September 2013,
FBI officials told the OIG that due to budgetary constraints and other
considerations, the Directorate of Intelligence has proposed a reorganization of
the HUMINT Management Section that will substantially change the validation
process the OIG reviewed in this follow-up report. The FBI expects to conduct a
pilot implementation of the reorganization soon. Because this is a significant
reorganization that has yet to be implemented, we cannot say whether the
proposed changes will adequately address our recommendation. However, the
FBI has committed to updating the OIG within six months. The OIG therefore
considers this recommendation resolved but not closed.

       We also recommended that to facilitate effective supervisory review of asset
handling, the FBI should keep analytical products, derogatory reporting,
anomalies, red flags, and all other counterintelligence concerns in one place in a
dedicated subsection of the asset file. We found that since 2006, the FBI has
institutionalized such a repository for derogatory information and that the bulk
of such information was contained therein. However, the OIG remains
concerned that there is still no simple mechanism for memorializing a particular

                                        2
type of derogatory information in the source’s file. Before this recommendation
can be closed, the FBI should take steps to institute such a requirement.

      In addition, we recommended that the FBI require the field Supervisory
Special Agent, the Assistant Special Agent in Charge, and the FBI Headquarters
Supervisory Special Agent responsible for each asset to signify that they have
reviewed the derogatory information on a source, and note what action has been
taken with respect to any anomalies or explain why no action is necessary. If no
action is necessary, the Assistant Special Agent in Charge’s agreement should be
noted. We found that the FBI has taken significant steps with respect to
implementing this recommendation as to field office supervisors. However,
because the FBI has not fully implemented this recommendation with respect to
FBI Headquarters supervisors, the OIG considers this recommendation resolved
but not closed.

       We also recommended that the FBI require agents to record in the asset file
any documents passed and all matters discussed with the asset, as well as each
person present for the meeting. Our review found that although the FBI has
taken steps to partially address this recommendation in practice, in order to
close the recommendation, the FBI should formalize this requirement in written
policy.

       Furthermore, we recommended that the FBI require alternate case agents
to meet with the source on a regular basis, together with the case agent. We
believe that an alternate case agent who had met regularly with Smith and Leung
would likely have been able to raise questions about the true nature of their
relationship. Although the FBI has made significant strides in vetting and
validating its human sources, because it has not implemented this
recommendation for a particular category of sources, the OIG considers this
recommendation resolved but not closed.

      Finally, we recommended that the FBI limit the number of years any
Special Agent can continue as an asset’s handler and allow exceptions for good
cause only. In the FBI’s September 2006 written response to the OIG’s
recommendations, the FBI stated that although its policy was that case agents
may handle a source for a specific number of years, agents could obtain a Special
Agent in Charge-approved exemption from this policy based on a “written
communication detailing strong justification.” In its February 2010 response
however, the FBI stated that there is currently no time limit on the number of
years an agent may operate a source. The OIG considers this recommendation
resolved. We will consider this recommendation closed if the FBI reverts to its
previous policy of requiring the Special Agent in Charge exemption based on a
written communication justifying the exemption, with the validation process
serving as confirmation that the exemption is justified.



                                        3
IV.   Conclusion

      Overall, we believe the FBI has made excellent progress in resolving the
major concerns that led to the OIG’s recommendations. The OIG believes that
the FBI’s continued support and development of the source validation process,
combined with the relative ease of access field supervisors now have to source
information, will further the FBI’s efforts to ensure that the circumstances that
allowed James Smith to evade management oversight and enabled Katrina
Leung to compromise U.S. intelligence interests regarding China will not be
repeated.

       Although the FBI has not fully implemented six of the OIG’s
recommendations, after reviewing a draft of this report, the FBI stated that it
concurred with the steps outlined in the report to close these recommendations.
FBI officials told the OIG that they are currently in the process of updating
policies to address each of these six recommendations and that they anticipate
the revisions will be finalized by the end of the calendar year. They also stated
that the FBI has taken steps to implement the changes recommended in this
report pending the issuance of the updated policies. The OIG will continue to
monitor the FBI’s progress in implementing the remaining recommendations.




                                        4
